U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Rolando Cruz, Jr., et al. v. United States, No. 20-1523
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 23, 2021.
The government’s response is now due, after one extension, on July 1, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 30, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners and counsel for the other respondents do not oppose this further
extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1523
CRUZ, ROLANDO JR.
USA

G. SCOTT GARDNER
1000 COMMERRCE PARK DRIVE
SUITE 310-B
WILLIAMPORT, PA 17701
570-971-0090
GSGMAKESWINE@GMAIL.COM
PETER GOLDBERGER
50 RITTENHOUSE PLACE
ARDMORE, PA 19003
610-649-8200
PETER.GOLDBERGER@VERIZON.NET
TIEFFA N. HARPER
FEDERAL PUBLIC DEFENDERS OFFICE
800 KING STREET
SUITE 200
WILMINGTON, DE 19801
302-573-6010
TIEFFA_HARPER@F.ORG

